          STATEMENT OF THE HONORABLE ERIC M. THORSON
                             INSPECTOR GENERAL
                      DEPARTMENT OF THE TREASURY
            BEFORE THE SENATE HOMELAND SECURITY AND
                  GOVERNMENTAL AFFAIRS COMMITTEE
           PERMANENT SUBCOMMITTEE ON INVESTIGATIONS
                                 APRIL 16, 2010
                                     9:30 AM


Chairman Levin, Senator Coburn, and Members of the Committee, thank you for
the opportunity, along with Mr. Jon Rymer, the Inspector General of the Federal
Deposit Insurance Corporation (FDIC), to discuss our joint evaluation of the failure
of Washington Mutual Savings Bank (WaMu) of Seattle, Washington.

Over the past 2 plus years, our country has found itself immersed in a financial
crisis that started when housing prices stopped rising and borrowers could no
longer refinance their way out of financial difficulty. Since then, we have seen
record levels of delinquency, defaults, foreclosures, and declining real estate
values. As a result, securities tied to real estate prices have plummeted, and
financial institutions have collapsed. In many cases, these financial institutions
were large and, before the crisis, seemed to be financially sound. But the warning
signs were there. Since mid-2007, my Office has completed 18 reviews of failed
financial institutions, including the one that we are testifying about this morning.
Based on those reviews, we have found that time and time again, the regulators for
which we have oversight, the Office of Thrift Supervision (OTS) and the Office of
Comptroller the Currency (OCC), frequently identified the early warning signs (or
“red flags”) that could have at least minimized, if not prevented, the losses
associated with the financial institutions’ failure but did not take sufficient
corrective action soon enough to do so.

My testimony today, and that of my colleague, will focus on the failure of WaMu.
WaMu was a federally-chartered savings association established in 1889 and FDIC-
insured since January 1, 1934. WaMu was wholly owned by Washington Mutual,
Inc., a non-diversified, multiple savings and loan holding company. WaMu grew
rapidly through acquisitions and mergers during the period 1991 to 2006, acquiring
11 institutions and merging with 2 affiliates with assets totaling nearly $198
billion. At the time of its failure, WaMu was one of the eight largest federally-

OIG-CA-10-006                                                      Page 1 of 18
insured financial institutions, operating 2,300 branches in 15 states, with total
assets of $307 billion.

TREASURY OFFICE OF INSPECTOR GENERAL OVERVIEW

My office provides independent audit and investigative oversight of the Department
of the Treasury’s programs and operations and that of its bureaus, excluding the
Internal Revenue Service and the Troubled Asset Relief Program also know as
TARP. In addition to overseeing Treasury’s financial institution regulators, OTS and
OCC, we oversee Treasury’s programs and operations to combat money laundering
and terrorist financing, manage federal collections and payments systems, manage
and account for the public debt, maintain government-wide financial accounting
records, manufacture the Nation’s currency and coins, collect revenue on alcohol
and tobacco products and regulate those industries, provide domestic assistance
through the Office of the Fiscal Assistant Secretary and the Community
Development Financial Institutions Fund, and international assistance through
multilateral financial institutions. Our current on-board staffing level is 144 which
breaks down as follows: 100 personnel in the Office of Audit and 20 personnel in
the Office of Investigations. The remaining personnel include my deputy, my legal
counsel, our administrative support staff, and me. Our fiscal year 2010 budget
appropriation is $29.7 million.

INSPECTOR GENERAL REVIEWS OF FEDERALLY-INSURED FAILED FINANCIAL
INSTITUTIONS

The Federal Deposit Insurance Corporation Improvement Act of 1991 (FDICIA)
requires that the Inspector General of the cognizant federal banking agency review
and report to that agency when an institution under its supervision fails and that
failure results in a material loss to the Deposit Insurance Fund. Among other things,
these reviews determine the causes of the institution’s failure and assess the
supervision exercised over the failed institution. Furthermore, a loss to the Deposit
Insurance Fund is considered material if it exceeds the greater of $25 million or 2
percent of an institution’s total assets at the time of its failure.

With that in mind, beginning with the failure of NetBank, FSB, in September 2007,
65 Treasury-regulated (OTS and OCC) financial institutions have failed as of
April 1, 2010. Of those, 49 have met the material loss review threshold. Of those,
my office has completed and issued 17 such reviews (8 to OTS and 9 to OCC); we
currently have another 32 failed thrift/bank reviews in progress. The total estimated
loss to the Deposit Insurance Fund attributable to those 49 Treasury-regulated
failed financial institutions is approximately $34.5 billion. Unfortunately, looking
forward, I believe my office will be busy conducting such reviews for some time to
come.




OIG-CA-10-006                                                      Page 2 of 18
JOINT TREASURY OIG/FDIC OIG REVIEW OF WAMU

On September 25, 2008, OTS closed WaMu and FDIC facilitated the sale of WaMu
to JPMorgan Chase in a closed bank transaction for $1.89 billion that resulted in
no loss to the Deposit Insurance Fund. It should be noted that since the failure of
WaMu did not result in a loss to the Deposit Insurance Fund, it did not trigger a
material loss review by my office. Nonetheless, given the size of WaMu and the
loss that it would have caused to the Deposit Insurance Fund had a sale not been
facilitated, Inspector General Rymer and I decided that an evaluation of OTS and
FDIC supervision was warranted. Among other things, we thought such a review
would provide important information and observations as the Administration and
Congress consider regulatory reform.

We completed our joint review and issued our results to Acting OTS Director
Bowman and FDIC Chairman Bair on April 9, 2010. That report discussed three
things: (1) the causes of WaMu’s failure; (2) OTS’s supervision of WaMu, and
(3) FDIC’s monitoring of WaMu in its role as deposit insurer, including the manner
and extent to which FDIC and OTS coordinated oversight of the institution. The
balance of my testimony will cover the causes of WaMu’s failure and OTS’s
supervision of it. Inspector General Rymer’s testimony will focus on FDIC’s role as
deposit insurer and its coordination with OTS with regard to exercising its back-up
examination authority. I will also briefly share the results of other work conducted
by my office involving a certain senior OTS official that interacted with FDIC in the
federal supervision of WaMu.

CAUSES OF WAMU’S FAILURE

WaMu failed because its management pursued a high-risk business strategy
without adequately underwriting1 its loans or controlling its risks. WaMu’s high-risk
strategy, combined with the housing and mortgage market collapse in mid-2007,
left WaMu with loan losses, borrowing capacity limitations, and a falling stock
price. In September 2008, WaMu was unable to raise capital to counter significant
depositor withdrawals sparked by rumors of WaMu’s problems and other high-
profile failures at the time. OTS closed WaMu on September 25, 2008.

High Risk Lending Strategy

In 2005, WaMu shifted away from originating traditional fixed-rate and conforming
single family residential loans, towards riskier subprime loans2 and option adjustable



1
  Underwriting is the process by which a lender decides whether a potential borrower is
creditworthy and should receive a loan.
2
  WaMu defined borrowers with a score of less than 620 on the FICO scale as subprime. FICO is a
credit score representing the creditworthiness of a person or the likelihood that person will pay his
or her debts. A person’s FICO score falls somewhere between 300 and 850.

OIG-CA-10-006                                                                   Page 3 of 18
rate mortgages also known as Option ARMs.3 WaMu pursued this new strategy in
anticipation of higher earnings and to compete with Countrywide Financial
Corporation, which, at the time, it viewed as its strongest competitor.

In 2006, WaMu estimated in internal documents that its internal profit margin on
subprime loans was more than 10 times the amount for a government-backed loan
product and more than 7 times the amount for a fixed-rate loan product. WaMu
also estimated its internal profit margin on Option ARMs at more than 8 times the
amount for a government-backed loan product and nearly 6 times the amount for a
fixed-rate loan product. In short, WaMu saw these riskier loan vehicles as a way to
substantially increase its profitability.

Option ARMs represented nearly half of all WaMu loan originations from 2003 to
2007 and totaled approximately $59 billion, or 47 percent, of the home loans on
WaMu’s balance sheet at the end of 2007.

WaMu’s underwriting policies and procedures made inherently high-risk products
even riskier. For example, WaMu originated a significant number of loans as “stated
income” loans, sometimes referred to as “low-doc” loans. These loans allowed
borrowers to simply write-in their income on the loan application without providing
supporting documentation. Approximately 90 percent of all of WaMu’s home equity
loans, 73 percent of its Option ARMs, and 50 percent of its subprime loans were
“stated income” loans.

WaMu also originated loans with high loan-to-value ratios.4 To that end, WaMu
held a significant percentage of loans where the loan exceeded 80 percent of the
underlying property value. For example, at the end of 2007, 44 percent of WaMu’s
subprime loans, 35 percent of WaMu’s home equity loans, and 6 percent of
WaMu’s Option ARMs were originated for total loan amounts in excess of 80
percent of the property’s value. Moreover, WaMu did not require borrowers to

3
  An option ARM is an adjustable rate mortgage that typically offers a very low teaser rate which
translates into very low minimum payments for a very short period of time. WaMu’s Option ARMs
provided borrowers with the choice to pay their monthly mortgages in amounts equal to monthly
principal and interest, interest-only, or a minimum monthly payment. The minimum monthly
payment was based on teaser rate. After the introductory rate expired, the minimum monthly
payment feature introduced two significant risks to WaMu’s portfolio: negative amortization and
payment shock. Negative amortization occurred when the minimum monthly payments made after
the expiration of the teaser rate was insufficient to pay monthly interest cost. The unpaid interest
was added to the principal loan balance thereby increasing the original loan amount. Payment shock
occurred 5 years after the loan was originated, or sooner in some circumstances, because the
minimum monthly payment was recomputed using a market interest rate, the larger principal
balance, and the remaining term of the loan.
4
  Loan to value (LTV) is one of the key risk factors that lenders assess when qualifying borrowers
for a mortgage. Typically, low LTV ratios (below 80 percent) carry with them lower rates for lower-
risk borrowers. Conversely, as the LTV ratio of a loan increases, the qualification guidelines for
certain mortgage programs become much more strict. Lenders can require borrowers of high LTV
loans to buy private mortgage insurance to protect the lender from borrower default.

OIG-CA-10-006                                                                 Page 4 of 18
purchase private mortgage insurance to protect itself against loss in case of default
by the borrowers.

Inadequate Controls to Manage the High-Risk Strategy

In addition to originating retail loans with its own employees, WaMu began
originating and purchasing wholesale loans through a network of brokers and
correspondents.5 From 2003 to 2007, wholesale loan channels represented 48 to
70 percent of WaMu’s total single family residential loan production.6 WaMu saw
the financial incentive to use wholesale loan channels for production as significant.
According to an April 2006 internal presentation to the WaMu Board, it cost WaMu
about 66 percent less to close a wholesale loan ($1,809 per loan) than it did to
close a retail loan ($5,273). So while WaMu profitability increased through the use
of third-party originators, it had far less oversight and control over the quality of
the originations.

In fact, WaMu did not adequately oversee the third-party brokers who were
originating most of WaMu’s mortgages. Specifically, in 2007, WaMu only had 14
WaMu employees overseeing more than 34,000 third-party brokers – an oversight
ratio of over 2,400 third party brokers to 1 WaMu employee. WaMu used
scorecards to evaluate its third-party brokers, but those scorecards did not measure
the rate of significant underwriting and documentation deficiencies attributable to
individual brokers. Furthermore, in 2007, WaMu itself identified fraud losses
attributable to third-party brokers of $51 million for subprime loans and $27 million
for prime loans. These matters are under further review by law enforcement
agencies.

Risk management was especially important for WaMu because of its high-risk
lending strategy, significant and frequent management changes, corporate
reorganizations, and significant growth as well as its sheer size. WaMu grew
rapidly from a regional to a national mortgage lender through acquisitions and
mergers with affiliate companies. From 1991 to 2006, WaMu acquired 11
institutions and merged with 2 affiliates. WaMu, however, did not fully integrate
and consolidate the information technology systems, risk controls, and policies and
procedures from the companies it acquired into a single enterprise-wide risk
management system. To that end, from 2004 through 2008, OTS repeatedly noted
that WaMu did not have effective controls in place to ensure proper risk
management.



5
  Brokers concentrate on finding customers in need of financing and process the loan application
and mortgage documents. Correspondents deal with the customer, then close and fund the loan
before selling the loan to an investor.
6
  WaMu exited wholesale lending channels in 2008 as losses mounted.


OIG-CA-10-006                                                                 Page 5 of 18
Significant Liquidity Stress in 2008

WaMu experienced liquidity problems beginning in late 2007. In the fourth quarter
of 2007 and first quarter of 2008, WaMu suffered consecutive $1 billion quarterly
losses because of loan charge-offs and reserves for future loan losses. WaMu did
briefly improve its liquidity position in April 2008 through a $7 billion investment in
WaMu’s holding company made by a consortium led by the Texas Pacific Group,
$5 billion of which was downstreamed to WaMu. Nevertheless, WaMu went on to
suffer a $3.2 billion loss in the second quarter of 2008 and saw its share price
decrease by 55 percent.

The high-profile failure of IndyMac Bank in July 2008 coupled with rumors of
WaMu’s problems further stressed WaMu’s liquidity. At the same time, the Federal
Home Loan Bank of San Francisco began to limit WaMu’s borrowing capacity. As a
result, WaMu began offering deposit rates in excess of its competitors in order to
bring in deposits to improve liquidity. Shortly thereafter, Lehman Brothers collapsed
on September 15, 2008, and over the following 8 days, WaMu incurred net deposit
outflows of $16.7 billion, creating a second liquidity crisis. WaMu’s ability to raise
capital was hindered by its borrowing capacity limits, share price declines, portfolio
losses, and an anti-dilution clause tied to the $7 billion capital investment. On
September 25, 2008, OTS closed WaMu and appointed FDIC as receiver.

OTS’S SUPERVISION OF WAMU

WaMu was OTS’s largest regulated institution and represented as much as 15
percent of OTS’s revenue from 2003 through 2008. OTS spent significant
resources examining WaMu. For example, in 2003, OTS devoted 17,285
examination hours to WaMu (the equivalent of more than 8 full time employees for
the entire year). Annually increasing the hours, by 2007 OTS devoted over 31,000
examination hours to WaMu (the equivalent of more than 15 full time employees
for the entire year).

OTS conducted regular risk assessments and examinations that rated WaMu’s
overall performance satisfactory until 2008. Furthermore, it should be noted that
those supervisory efforts did identify the core weaknesses that eventually led to
WaMu’s demise – high-risk products, poor underwriting, and weak risk controls. In
fact, issues with poor underwriting and weak risk controls were noted at least as
far back as 2003, the earliest examination documentation we looked at during our
review, and issues with high-risk loan products were reported soon after WaMu
started to offer them in 2005. OTS, however, relied largely on WaMu management
to track progress in correcting examiner-identified weaknesses and accepted
assurances from WaMu management and its Board of Directors that problems
would be resolved. The problem was, however, that OTS did not ensure that
WaMu corrected those weaknesses. In fact, OTS did not take any safety and



OIG-CA-10-006                                                       Page 6 of 18
soundness enforcement action against WaMu until 2008 after the thrift started to
incur significant losses, and the two actions taken were very weak.

Bank regulators, including OTS, use a uniform rating system called CAMELS7 to
assess financial institution performance. The CAMELS rating is a critical factor in
supporting the need for enforcement actions and in determining the assessment
rate an institution should pay for deposit insurance. Briefly put, CAMELS ratings are
based on a scale from 1 to 5, with 1 being the best rating and 5 being the worst.
Generally, if a financial institution has a composite CAMELS rating of 1 it is
considered to be a high-quality institution, while financial institutions with
composite CAMELS ratings of greater than 3 are considered to be less than
satisfactory.

The following table provides standard definitions of each CAMELS composite rating
level.

               CAMELS Composite Rating Definitions
               1          Sound in every respect
               2          Fundamentally sound
               3          Exhibits some degree of supervisory concern in one or
                          more of the component areas (i.e., capital adequacy,
                          asset quality, management, earnings, liquidity,
                          sensitivity to market risk)
               4          Generally exhibits unsafe and unsound practices or
                          conditions
               5          Exhibits extremely unsafe and unsound practices or
                          conditions; exhibits a critically deficient performance;
                          often contains inadequate risk management practices
                          relative to the institution’s size, complexity, and risk
                          profile; and is of the greatest supervisory concern


From 2001 to 2007, OTS consistently rated WaMu a CAMELS composite 2,
meaning, by definition, that OTS considered WaMu as fundamentally sound during
these years. Specifically, the CAMELS composite criteria for a 2 rating state that
such institutions have only moderate weaknesses that are within the board’s and
management’s capability and willingness to correct, and have satisfactory risk
management practices relative to the institution’s size, complexity, and risk profile.
Furthermore, institutions in this category are considered to be stable and capable of
withstanding business fluctuations.


7
  The CAMELS rating is a supervisory rating of a financial institution's overall condition. Bank
regulators assign each financial institution under their supervision a score on a scale of 1 (best) to 5
(worst) for each CAMELS component. The CAMELS components are: C - Capital adequacy,
A --- Asset quality, M - Management quality, E – Earnings, L – Liquidity, and S - Sensitivity to
Market Risk.

OIG-CA-10-006                                                                    Page 7 of 18
Given the multiple repeat findings related to asset quality and management, and
considering the definitions of the composite ratings, it is difficult to understand
how OTS continued to assign WaMu a composite 2-rating year after year. It was
not until WaMu began experiencing losses at the end of 2007 and into 2008 that
OTS lowered WaMu’s CAMELS composite rating to 3 in February 2008, and
ultimately to 4 in September 2008.

The following chart shows the CAMELS composite ratings and asset management
and management component ratings assigned to WaMu by OTS from 2003 through
2008.

           WaMu’s OTS–Assigned CAMELS Ratings
                                                   Asset
           Year                    Composite       Quality      Management
           2003                       2              2              2
           2004                       2              2              2
           2005                       2              2              2
           2006                       2              2              2
           2007                       2              2              2
           2008
           As of February 27           3              3              2
           As of June 30               3              4              3
           As of September 18          4              4              3


OTS Examiners Identified Concerns with WaMu’s Asset Quality

Asset quality is one of the most critical areas in determining the overall condition of
a financial institution. The primary factor to consider in assessing an institution’s
overall asset quality is the quality of the loan portfolio and the credit administration
program.

OTS examiners repeatedly identified issues and weaknesses associated with
WaMu’s asset quality – especially with regard to issues identified in single family
residential loan underwriting and oversight of third-party brokers. Nevertheless,
OTS rated WaMu’s asset quality as satisfactory (CAMELS component rating of 2)
until February 2008, when it downgraded it to a 3 on an interim basis. The asset
quality rating was further dropped to a 4 in June 2008.




OIG-CA-10-006                                                       Page 8 of 18
CAMELS asset quality ratings definitions are shown in the table below.

            CAMELS Rating Definitions for Asset Quality
            1        Strong asset quality and credit administration
                     practices
            2        Satisfactory asset quality and credit administration
                     practices
            3        Less than satisfactory asset quality and credit
                     administration practices
            4        Deficient asset quality or credit administration
                     practices
            5        Critically deficient asset quality or credit
                     administration practices


OTS identified a number of significant concerns with WaMu’s single family
residential underwriting practices from 2003 to 2008. Those concerns included
questions about the reasonableness of stated incomes contained in loan
documents, numerous underwriting exceptions, miscalculations of loan-to-value
ratios, and missing or inadequate documentation. Furthermore, the fact that so
many of WaMu’s single family residential loans were Option ARMs further
underscored the risky nature of its loan portfolio. In the 2005 Report of
Examination to WaMu, OTS wrote, “We believe the level of deficiencies, if left
unchecked, could erode the credit quality of the portfolio. Our concerns are
increased when the risk profile of the portfolio is considered, including
concentrations in Option ARM loans to higher-risk borrowers, in low and limited
documentation loans, and loans with subprime or higher-risk characteristics. We are
concerned further that the current market environment is masking potentially higher
credit risk.”

Examples of WaMu underwriting deficiencies identified by OTS from 2003 to 2007
when asset quality was rated as a 2 are described below.

 2003 and 2004 - OTS reported that underwriting of single family residential
  loans, WaMu’s core loan activity, was less than satisfactory.

 2005 - OTS reported that although overall single family residential loan quality
  and performance trends were stable, the thrift’s underwriting remained less than
  satisfactory. OTS noted that this concern had been expressed at several prior
  exams as well as internal reviews and that the examiners remained concerned
  with the number of underwriting exceptions and with issues that evidenced a lack
  of compliance with bank policy.

 2006 to 2007 - OTS reported that single family residential loan and prime
  underwriting had improved to marginally satisfactory and generally satisfactory,
  respectively. However, OTS reported concerns with subprime underwriting

OIG-CA-10-006                                                         Page 9 of 18
 practices by Long Beach Mortgage Company, a WaMu affiliate that merged with
 WaMu in March 2006. OTS also reported that subprime underwriting practices
 remained less than satisfactory and cited exceptions related to the miscalculation
 of debt-to-income ratios, reasonableness of stated incomes on loan documents,
 and borrower acknowledgement of payment shock. (It should be noted that
 WaMu discontinued subprime lending in the fourth quarter of 2007.)

From 2005 through 2007, while OTS was issuing multiple repeat findings
pertaining to single family residential loan underwriting, WaMu originated almost
$618 billion in single family residential loans.

As discussed earlier, in addition to originating retail loans with its own employees,
WaMu began originating and purchasing wholesale loans through a network of
brokers and correspondent banks. So much so that wholesale loan channels
represented 48 to 70 percent of WaMu’s single family residential loan production
from 2003 to 2007. The financial incentive to use the wholesale channels was
significant—internal WaMu documents dated April 2006 showed that it cost WaMu
more than $5,000 to close a retail loan but only $1,800 to close a wholesale loan.
It was simply far cheaper, and more profitable, for WaMu to purchase loans then to
originate them with its own employees.

From 2003 to 2007, OTS repeatedly identified weaknesses in WaMu’s oversight of
third-party originators. As discussed earlier, in 2007, there were only 14 WaMu
employees overseeing more than 34,000 third-party brokers. It wasn’t until April
2008 that WaMu management announced that it would discontinue the wholesale
channel.

During our review, we asked OTS examiners why they did not lower WaMu’s asset
quality ratings earlier. Examiners responded that even though underwriting and risk
management practices were less than satisfactory, WaMu was making money and
loans were performing. Accordingly, the examiners thought it would have been
difficult to lower WaMu’s asset quality rating.

This position was a surprise to us since OTS’s own guidance states: “[if] an
association has a high exposure to credit risk, it is not sufficient to demonstrate
that the loans are profitable or that the association has not experienced significant
losses in the near term.”

Given this guidance, the significance of single family residential lending to WaMu’s
business, and the fact that the OTS repeatedly brought the same issues related to
asset quality to the attention of WaMu management and the issues remained
uncorrected, we find it difficult to understand how OTS could assign WaMu a
satisfactory asset quality 2-rating for so long. Assigning a satisfactory rating when
conditions are not satisfactory sends a mixed and inappropriate supervisory
message to the institution and its board. It is also contrary to the very purpose for
which regulators use the CAMELS rating system.

OIG-CA-10-006                                                     Page 10 of 18
OTS Examiners Identified Problems but Consistently Rated WaMu Management
Satisfactory

OTS’s guidance states that one of the most important objectives of an examination
is to evaluate the quality and effectiveness of a savings association’s management,
and that the success or failure of almost every facet of operations relates directly
to management.

The CAMELS management rating definitions are below.

            CAMELS Rating Definitions for Management
            1        Strong performance by management and the Board of
                     Directors and strong risk management practices
            2        Satisfactory performance by management and the
                     Board of Directors and satisfactory risk management
                     practices
            3        Improvement needed in management and Board of
                     Directors performance or less than satisfactory risk
                     management practices
            4        Deficient management and Board of Directors
                     performance or inadequate risk management practices
            5        Critically deficient management and Board of
                     Directors performance or risk management practices


OTS identified problems regarding WaMu management in its examination
documents from 2003 through 2008. The primary areas of concern were the lack
of effective internal controls and an insufficient commitment on the part of WaMu’s
Board and management to take action to address OTS-identified weaknesses.

Despite its concerns, OTS reported that WaMu’s Board oversight and
management’s performance was satisfactory through 2007 and rated the CAMELS
management component a 2 in those examinations. It was not until June 2008
that OTS reported that WaMu’s Board oversight and management’s performance
was less than satisfactory and downgraded the CAMELS management component
to a 3. OTS faulted the WaMu Board and management for not adequately
addressing prior examination findings, including single family mortgage loan
underwriting weaknesses and an ineffective enterprise-wide risk management
system. OTS now (in 2008 and after WaMu started incurring big losses) concluded
that failure to address those weaknesses in a timely manner was exacerbating
credit losses and exposing WaMu to heightened reputation risk.

OTS examination reports repeatedly directed that WaMu take corrective actions in
response to examination findings. Nevertheless, WaMu management did not make
lasting or complete improvements to its asset quality or risk management
programs. Here again OTS’s own guidance notes that governance is strong when


OIG-CA-10-006                                                    Page 11 of 18
the Board addresses and corrects problems early. That guidance further states that
where governance is weak or nonexistent, problems remain uncorrected, possibly
resulting in the association’s failure.

In an effort to determine the extent to which WaMu addressed OTS findings, we
attempted to review the 545 findings made by OTS and WaMu’s responses to
them from 2003 through 2007. The status of these findings were tracked in a
WaMu system called Enterprise Risk Issue Control System (ERICS) and not
independently by OTS on an OTS system. Based on our review of ERICS reports
and other documents, we were unable to determine whether a number of findings
had been closed and resolved. As discussed later, after considerable effort, OTS
was able to provide evidence that some of those findings had been closed.

We also noted that a number of the findings reported by OTS were repeat findings,
indicating the issue was identified during more than one examination cycle. For
example, 18 percent of OTS’s more significant findings (those specifically directed
to WaMu’s Board for corrective action) between 2003 and 2006 were categorized
as repeat findings. However, WaMu discontinued indicating in ERICS whether a
finding was a repeat finding in 2006. Thus, the number of repeat findings could
have been much greater.

Given WaMu’s lack of progress in addressing OTS-identified weaknesses, we
believe that a less than satisfactory management component rating should have
been assigned to WaMu sooner.

OTS Should Have Done More to Track WaMu’s Progress

We found, to our surprise, that OTS largely relied on WaMu’s ERICS system
instead of its own to track corrective actions. As I mentioned earlier, we tried to
track findings closed and resolved through the WaMu tracking system, but could
not.

OTS examiners told us that they had a process for reviewing WaMu’s corrective
actions. Specifically, we were told that during an examination, ERICS reports were
divided up among the OTS examiners based upon each examiner’s area of
responsibility. Each examiner was responsible for determining whether ERICS
properly reflected the status of findings for their assigned area. If satisfied, the
examiner would then sign-off on the respective ERICS report.

With that in mind, we reviewed 8 ERICS status reports for the years 2003 through
2008, and found evidence of examiner sign-off on only 3 of the 8 reports. During
our review, we asked OTS to provide evidence of the status of 39 significant
findings that appeared to be open in the ERICS reports.

OTS showed us that 16 findings were issued/newly identified during 2008 and
remained unresolved as of WaMu’s failure. For another 16 findings, OTS provided


OIG-CA-10-006                                                     Page 12 of 18
evidence, although limited in some cases (such as handwritten notes on an ERICS
report), that those findings were resolved. For the other 7 findings, however, OTS
either did not provide evidence as to the findings’ status or stated that the findings
had been replaced by new findings pertaining to a repeat finding area. While OTS
was ultimately able to provide some additional information about the status of
certain findings, doing so required considerable time and effort on OTS’s part. This
further underscores the flawed decision by OTS to rely on the WaMu system for
tracking the examiner findings.

OTS Enforcement Actions Against WaMu Were Limited and Late

OTS can take a variety of enforcement actions, both informal (which are non-
public) and formal (which are public), to address, among other things, unsafe and
unsound practices by a thrift.

In general, OTS policy provides that formal enforcement action should be taken
when any institution is in material noncompliance with prior commitments to take
corrective actions and for CAMELS composite 3-rated institutions with weak
management, where there is uncertainty to whether management and the board
have the ability or willingness to take appropriate corrective measures.

OTS never took formal enforcement action against WaMu to force it to correct its
safety and soundness deficiencies. OTS did impose two informal enforcement
actions against the thrift, but not until 2008. The informal enforcement actions —a
Board Resolution and an MOU—lacked sufficient substance and were too late to
make a difference. Moreover, though, there were other troubling aspects as to how
OTS handled both actions. In the instance of the Board Resolution, the OTS West
Region Director approved the Board Resolution despite concerns raised by other
regional management officials. Furthermore, with regard to the MOU, an important
provision that FDIC had proposed that would have required WaMu to raise $5
billion in additional capital was replaced with a capital contingency plan, and
another requiring that a consultant review of Board oversight was dropped at the
request of WaMu.

During our review, we were told that OTS had a general sense of the status of
WaMu’s progress in addressing weaknesses, but OTS examiners said that tracking
WaMu’s progress was difficult given its size and complexity. Further, OTS
examiners told us that WaMu oftentimes replaced managers as its response to
significant findings in their areas of responsibility. WaMu would then ask OTS for
time to allow the newly hired manager to implement plans to address weaknesses.
Given the size of WaMu, the magnitude of the weaknesses identified by OTS
examiners year after year, coupled with the limited progress made by WaMu
management in correcting those weaknesses, we believe that OTS should have
elevated its supervisory response much sooner and much more forcefully.



OIG-CA-10-006                                                     Page 13 of 18
OTS sought a Board Resolution as a result of the interim downgrade of WaMu to a
CAMELS composite 3 rating in February 2008. WaMu drafted the Board Resolution
and sent it to the OTS West Region Director on March 13, 2008. The Board
Resolution endorsed undertaking “strategic initiatives” to improve asset quality,
earnings, and liquidity and directed WaMu management to implement and report on
those initiatives. The strategic initiatives tied the improvements to either (1) the
sale of WaMu or (2) raising $3 billion to $4 billion in capital. Interestingly, the
resolution only addressed short-term liquidity issues, not the systemic problems
repeatedly noted by OTS.

The OTS West Region Director sent the Board Resolution to two members of OTS’s
regional management for their comments. Both OTS regional management officials
expressed concern about the fact that the Board Resolution did not require specific
corrective actions. Further, those officials recognized WaMu’s lack of follow-
through on past promises and believed that OTS needed to review management’s
strategic plans to ensure they addressed the critical weaknesses linked to WaMu’s
composite downgrade. Despite the concerns of these officials, the OTS West
Region Director approved WaMu’s version of the Board Resolution anyway, which
the Board passed on March 17, 2008.

The second informal enforcement action taken by OTS against WaMu was an MOU
as a consequence of its downgraded CAMELS composite 3 rating at the end of its
examination on June 30, 2008. OTS drafted the MOU and provided a copy to FDIC
for comment. FDIC proposed a number of changes to the MOU, including a
provision that WaMu raise an additional $5 billion in capital. OTS did not want to
include the $5 billion capital increase requirement because OTS believed that
WaMu’s capital was sufficient following a $2 billion contribution from WaMu’s
holding company in July 2008. Further, OTS thought that FDIC’s model used to
determine the $5 billion amount was flawed. FDIC and OTS eventually
compromised and included a capital contingency plan requirement in the MOU
rather than a specific amount. OTS sent WaMu management the proposed MOU on
August 1, 2008, that would require WaMu to

      •   correct all findings noted in OTS’s June 30, 2008, examination;

      •   submit a contingency capital plan and maintain certain capital ratios;

      •   submit a 3-year Business Plan to OTS;

      •   engage a consultant to review WaMu’s risk management structure,
          underwriting, management, and board oversight; and

      •   certify compliance with the MOU quarterly.

On August 4, 2008, WaMu asked that the requirement for the consultant review of
Board oversight be removed from the proposed MOU. OTS accepted WaMu’s


OIG-CA-10-006                                                    Page 14 of 18
change notwithstanding the OTS examiners’ findings over many years that the
Board’s performance was weak. By August 25, 2008, WaMu’s attorney and OTS
had informally reached agreement on the terms of the MOU and were waiting for
final execution of the MOU. However, it was not until September 7, 2008, that
OTS signed the MOU. A week later, WaMu was placed into receivership. The MOU
was therefore obviously ineffective.

While we recognize it is speculative to conclude that earlier and more forceful
enforcement action would have prevented WaMu’s failure, we believe that more
forceful action in 2006 and 2007 may have compelled WaMu’s Board and
management to take more aggressive steps to correct deficiencies and stem the
losses that eventually occurred because of its risky loan products and weak
controls.

Prompt Corrective Action Was Not a Factor With WaMu

The Prompt Corrective Action (PCA) provisions of the Federal Deposit Insurance
Act provides OTS with supervisory remedies aimed to minimize losses to the
Deposit Insurance Fund. PCA requires that certain operating restrictions take effect
when a thrift’s capital levels fall below well-capitalized. In the case of WaMu, OTS
did not take, and was not required to take, PCA action because WaMu remained
well-capitalized through September 25, 2008, when it was placed in receivership.
That said, it was only a matter of time before losses associated with WaMu’s high-
risk lending practices would have depleted its capital below regulatory
requirements.

TREASURY OIG RECOMMENDATIONS

We have made a number of recommendations to OTS as a result of completed
material loss reviews of failed thrifts during the current economic crisis. These
recommendations have pertained to the need for OTS to take more timely formal
enforcement action when circumstances warrant, ensure that high CAMELS ratings
are properly supported, remind examiners of the risks associated with rapid growth
and high-risk concentrations, ensure thrifts have sound internal risk management
systems, ensure repeat conditions are reviewed and corrected, and require thrifts
to hold adequate capital. OTS has taken or plans to take action in response to each
of these recommendations. As a result of this review, we made one new
recommendation to OTS. Specifically, OTS should ensure that an internal OTS
system is used to formally track the status of examiner recommendations and
related thrift corrective actions. The Acting Director of OTS concurred.

FINAL REMARKS AND OBSERVATIONS

Among other things, in my invitation to testify before you this morning, the
Subcommittee requested that I address our Office’s findings regarding OTS’s
implementation of the Interagency Guidance on Nontraditional Mortgage Product

OIG-CA-10-006                                                   Page 15 of 18
Risks (NTM Guidance) at WaMu as well as its level of cooperation with other
federal financial regulators towards WaMu, including but not limited to FDIC.

      Implementation of NTM Guidance. In short, this guidance, issued in October
      2006 by the federal financial institution regulatory agencies, sets forth
      supervisory expectations for institutions that originate or service
      nontraditional mortgage loans, including:

      •   Portfolio and Risk Management practices. Financial institutions should
          have strong risk management practices, capital levels commensurate with
          risk, adequate allowances for loan losses, and strong systems and
          controls for establishing and maintaining relationships with third parties.
      •   Loan Team and Underwriting Standards. Institutions should establish
          prudent lending policies and underwriting standards for nontraditional
          mortgage products that include consideration of a borrower’s repayment
          capacity.
      •   Risk Layering. Financial institutions that layer multiple product types may
          increase the potential risks of alternative mortgage products. Institutions
          should perform adequate underwriting analysis when layering products,
          including alternative mortgage loans, reduced or no documentation loans,
          loans without customer verification, or a combination of any of these
          mortgages with simultaneous second mortgages.
      •   Consumer Protection. Institutions should implement programs and
          practices designed to ensure that consumers receive clear and balanced
          information to help them make informed decisions while shopping for and
          selecting alternative mortgage loans.

      Our work did not specifically evaluate OTS’s assessment of WaMu's
      implementation of, or compliance with the NTM Guidance. Nonetheless,
      based on your request, I had my staff review the documents we had
      collected in the conduct of our work. To that end, we did find that in the
      2007 report of examination on WaMu, OTS noted that while WaMu was not
      in complete adherence with the NTM Guidance, satisfactory progress had
      been made to address identified risks. OTS also drafted a finding during the
      2007 examination cycle that identified the steps WaMu planned to take to
      comply with the guidance and also included that WaMu should review third-
      party originators because they were a key source of WaMu’s nontraditional
      loans. OTS classified this finding as an “observation” which meant that it
      was a weakness that was not a regulatory concern, but could improve the
      bank's operating effectiveness if addressed.

      OTS Cooperation with Other Federal Financial Regulators. Our work did not
      expressly evaluate OTS’s cooperation with other federal financial regulators.
      However, we are able to comment on OTS’s relationship with FDIC as the
      deposit insurer. In this regard, FDIC, as the deposit insurer, has a number of

OIG-CA-10-006                                                    Page 16 of 18
       procedural and regulatory tools available to take action when an institution’s
       risk increases, to include requesting that the primary regulator (OTS in the
       case of WaMu) grant FDIC back-up examination authority. FDIC invoked its
       back-up examination authority each year from 2005 to 2008. Those
       requests, however, often met with resistance from OTS.

       A discussion of OTS’s interaction with FDIC on these requests follows. OTS
       granted FDIC’s 2005 back-up examination request but denied FDIC the
       ability to review the subprime operations of WaMu’s affiliate, Long Beach
       Mortgage Company (LBMC), because LBMC was a subsidiary of WaMu’s
       parent corporation and not part of WaMu. In 2006, FDIC again requested
       back-up examination authority, and OTS initially denied the FDIC request.
       After the matter was elevated to OTS and FDIC headquarters, OTS
       eventually granted FDIC back-up examination authority.

       OTS granted FDIC’s 2007 back-up examination request but did not allow
       FDIC examiners access to WaMu residential loan files. OTS considered loan
       file review to be an examination activity rather than an insurance risk
       assessment activity. FDIC wanted to review the files because of
       underwriting concerns and because FDIC had concerns that OTS had not
       adequately reviewed the loan files during its examination to fully understand
       the embedded risk.

       In granting FDIC’s 2008 back-up examination request, OTS was concerned
       about the number of examiners (nine) that FDIC was planning to use. OTS
       indicated that it was a heavy staffing request given OTS’s on-site presence
       and reiterating that FDIC was not to actively participate in the examination.

As one final matter, as I noted above, we were troubled by the handling of the
informal enforcement actions that OTS finally did impose in 2008 including the
decision by the then OTS West Region Director to approve the use of a Board
Resolution that did not require WaMu to correct its deficiencies. This is not the only
decision by that OTS official that we have found of serious concern. As our office
previously reported,8 the same OTS official approved IndyMac Bank, FSB, to
backdate a capital contribution made in May 2008 to the quarter ending March 31,
2008. The impact of recording the capital contribution in this manner was that
IndyMac was able to maintain its well-capitalized status for the quarter, and avoid
the requirement in law to obtain a waiver from FDIC to accept brokered deposits.9
Having said that, I do want to note that shortly after our Office first reported this
matter to the Treasury Secretary, OTS placed the official on administrative leave
pending an internal review. The official has since retired from federal service.

8
  Treasury OIG, Safety and Soundness: OTS Involvement With Backdated Capital Contributions by
Thrifts (OIG-09-037; issued May 21, 2009).
9
  On July 11, 2008, OTS closed IndyMac and appointed FDIC as conservator. As of December 31,
2008, the estimated loss to the Deposit Insurance Fund for IndyMac was $10.7 billion.

OIG-CA-10-006                                                           Page 17 of 18
That concludes my prepared statement. I will be happy to answer any questions
you may have. Thank you.




OIG-CA-10-006                                                Page 18 of 18
